           Amtrak
Office of Inspector General

              Evaluation Report E-09-02

                Financial Impact of
                 Equipment Delays
                       March 25, 2009




This report will become available to the public on 24 April 2009.
                        Table of Contents


Executive Summary                                       3

Introduction                                            4

Methodology                                             4

     OTP versus Delay Minutes                           5

     Revenue versus OTP                                 6

     Revenue Loss per Delay Minute by Route             7

     Annual Minutes of Train Delays by Equipment Type   9

     Impact of Delays by Equipment Type                 10

Results                                                 10



List of Appendices

Appendix I – Route OTP vs. Delay Minutes                15

     NEC                                                16

     Short Distance                                     17

     Long Distance                                      25

Appendix II – Market Research Ticket Revenue Impact     32

     NEC                                                33

     Short Distance                                     34

     Long Distance                                      43

Appendix III – Major Contributors                       50



                                    2
                          Executive Summary
       Amtrak’s OIG has been evaluating the efficiency and effectiveness of
Amtrak’s rolling stock maintenance program for several years. During this
period, we noticed that Amtrak had a difficult time quantifying the monetary
benefits associated with improved equipment reliability. The objective of this
study was to provide Amtrak with a tool to assess the economic benefits of
investing in initiatives to improve the reliability of equipment. Having the ability
to quantify the benefits of proposed initiatives will not only enhance the business
cases of new proposals, but also provide a means to prioritize programs vying for
scarce resources.


Results

       The revenue impact of equipment related train delays has been quantified
in terms of revenue loss per delay minute and total annual revenue loss by type
of equipment. As shown in the following table, we estimated that Amtrak lost
more than $13 million in revenue as a result of 284,351 minutes of equipment
related delays in FY07. The total annual revenue loss due to equipment related
delays reaches $3.0 million for the P42 locomotives and for the Acela trainsets.
This information should be very helpful in determining which equipment
maintenance programs to focus on and what revenue gains should be
anticipated from any changes that positively impact equipment reliability.

              FY07 Revenue Loss Due to Equipment Delays
                                                FY07 Delay    Total Rev      FY 07 Total
                              FY07 Delay         Mins per      Loss per       Rev Loss
            Equipment           Mins             10K Miles   Delay Min ($)     ($000's)

    P42s                          115,731            37.33   $      25.71    $   2,975.58
    Acela                          13,525             7.02   $     218.63    $   2,956.94
    AEM7s/HHPs                     41,321            52.33   $      50.76    $   2,097.47
    F59s                           26,166            49.84   $      61.47    $   1,608.41
    P32DMs                         10,358            45.73   $      87.42    $     905.44
    Amfleet Is                     14,648             2.40   $      59.27    $     868.17
    Superliners                    18,565             2.29   $      26.97    $     500.74
    California cars                 8,505             8.36   $      34.33    $     291.96
    Amfleet IIs                    12,003             4.94   $      22.94    $     275.34
    Talgo                           1,199             4.10   $     140.26    $     168.23
    Heritage                        6,567             3.88   $      20.52    $     134.73
    Viewliners                      4,806             5.09   $      20.69    $      99.44
    Horizons                        4,535             3.69   $      19.76    $      89.63
    Surfliners                      2,407             3.41   $      35.00    $      84.26
    Metro Cab Coach                 3,112            40.21   $      14.17    $      44.10
    F40CabBag                         403             4.15   $      48.69    $      19.62
    P40s                              487            13.51   $      18.74    $       9.13
    NC Cars                            11             0.36   $       9.60    $       0.10

    Total                         284,351             9.69   $      46.17    $ 13,129.30



                                            3
                                         Introduction

       As part of its goal to improve Amtrak’s financial performance, Amtrak’s
OIG has been evaluating the costs and benefits associated with various rolling
stock maintenance programs. Our previous evaluation of the Financial Impact of
Improved Long Distance Trains On-Time Performance (E-06-05) has shown that
there is a direct correlation between equipment reliability and train OTP, and
between train OTP and train revenue. The objective of this study is to quantify a
relationship between revenue and delay minutes by equipment type. This will
enable Amtrak to determine the financial benefit 1 of investing in initiatives to
improve equipment reliability.

      This report presents our results and documents the approach we used to
estimate the revenue loss due to equipment delays.


                                        Methodology
       The following process is used to estimate the benefit (greater ticket
revenues) of improving the reliability of each type of Amtrak’s rolling stock.
Since Amtrak maintains its OTP and Delay Minutes by route, the revenue benefit
of improving the reliability of train service (reducing delay minutes) is calculated
as shown below.

                                                               Delay Minutes
                                 Revenue per
    Revenue Loss                                                    per
    per Delay Min      =          1% change          ÷          1% change
                                    in OTP
                                                                  in OTP


         This relationship quantifies the revenue lost or gained from each change
in delay minute for a specific route. The financial impact of specific equipment
reliability is calculated as shown below by multiplying the Revenue per Delay
Minute ratio for a route by the number of delay minutes experienced by this type
of equipment on this route.

 Revenue Loss                       Total
      per                       Delay Minutes                    Revenue Loss
Delay Minute By         =         For Each            X          per Delay Min
Equipment Type                 Equipment Type




1
  The study focused solely on ticket revenues to estimate financial benefit. Our previous study showed that
revenue gains were by far the greatest financial benefit to reduced delays.
Due to the market’s reaction to new initiatives and perception to improvement, there will be a time lag
between improved equipment reliability and the resulting revenue gains.
                                                     4
      Finally, the total revenue impact from improving the reliability of each
equipment type is obtained by adding up the revenue impact from all routes on
which the equipment operated.

       The following sections provide the detailed explanations how each of
these factors are developed.


OTP versus Delay Minutes

       As previously stated, Amtrak’s OIG had established that there is a
relationship between the OTP of its Long Distance Trains and the number of
delay minutes that were incurred by the trains operating on these routes. This
new study quantifies this relationship for all Amtrak routes by performing a
correlation analysis between the monthly OTP and the monthly delay minutes for
each route over a three year period. The delay minutes were measured on a
delay minutes per 10,000 train mile basis to normalize the data for differences in
the number of monthly train miles operated.

       Using three years of data (FY05 through FY07) from Amtrak’s On Time
Performance and Delay Reporting System, the relationship between Delay
Minutes (per 10K train miles) and OTP for each route was derived by plotting
OTP against Delay Minutes (per 10K Train Miles) for each month 2 . The best-fit
trend (highest R-squared correlation coefficient) 3 was then applied to the graph
to determine the number of delay minutes that would need to be reduced to
increase OTP by 1 percent 4 -- see the example for the Coast Starlight on the
next page . The graphs for the rest of the routes are contained in Appendix I.

       In a linear relationship, where the slope of the line is constant, the change
in delay minutes for every 1% change in OTP is the same for all points along the
linear graph. In a non-linear relationship, the change in delay minutes depends
on the base level of the OTP, which is where along the curve line the 1% change
in OTP takes place. Consequently, for routes with a non-linear relationship, the
change in Delay Minutes was derived with consideration given to the average %
OTP in FY07. In the example shown in Figure 1 for the Coast Starlight, with an
average base OTP of 23%, the OTP range is taken from 20% OTP to 30% OTP.
The corresponding difference in Delay Minutes is 200, (Delay Minutes from 2,560
at 30% OTP to 2,760 at 20% OTP). Therefore, the change per 1% of OTP is


2
   In some cases, the data used was adjusted for service realignment, such as Illinois/Missouri services,
significant schedule changes, and zero OTP data points.
3
  The correlation coefficient shows the magnitude of strength (strong or weak) and direction (positive or
negative) between two variables.
          Linear – best fit when pattern resembles a straight line.
          Logarithmic – best fit when rate of change increases or decreases quickly and levels out.
          Exponential – best fit curve line when data values rises or fall at increasingly higher rates.
4
  Sometimes, the trend line from the next best R-squared value was used when the formula for the best-fit
trend line lacked the precision to accurately determine the relationship.
                                                    5
estimated to be 20 Delay Minutes per 10K TMs (200 Delay Minutes divided by
10%).

    Figure 1 – Example OTP vs. Delay Minutes (per 10K Train Miles)
                                    Coast Starlight - OTP Vs. Delay Mins. per 10K TM
                                                  Zero OTPs Excluded
                   70.0%

                   60.0%
                                                                                                   -5.3892
                                                                                     y = 7E+17x
                   50.0%                                                                  2
                                                                                        R = 0.8335
                   40.0%
             OTP




                   30.0%
                                      10%

                   20.0%

                                            200
                   10.0%

                    0.0%
                        2000              2500           3000        3500          4000          4500        5000
                                                   Delay Minutes per 10K Train Miles




Revenue Versus OTP

       Our analysis used the data provided by Amtrak’s Market Research
department that quantifies the relationship between revenue and OTP – see
Appendix II. As illustrated in the following data for the Coast Starlight, Market
Research provided us a matrix that, using FY07 performance as a base,
quantifies the changes in revenue that are estimated to occur for changes in OTP
and also for changes in trip time. For example, if the OTP of the Coast Starlight
is improved from its FY07 performance level (i.e., 20% OTP and 35:22 running
time), the revenue impact of each 1% improvement in OTP is estimated as a
1/10 of the $110,000 revenue change between 20% OTP and 30% OTP, or
$11,000.

                   Figure 2 – Example Revenue vs. OTP
                        Coast Starlight Ticket Revenue Im pacts (m illions)
                             from Changes in Travel Tim e and O TP


                                            (FY07 Base*)
                                                            Seattle-Los Angeles Travel Tim e**
                                                 35:22       35:52        36:22        36:52        37:22

         (FY07 Base*)               20%                     -$0.54       -$1.12        -$1.70       -$2.26

                                    30%       +$0.11        -$0.43       -$1.02        -$1.60       -$2.16

                                    40%       +$0.62        +$0.08       -$0.52        -$1.11       -$1.69
                        Route OTP




                                    50%       +$1.82        +$1.25       +$0.62       +$0.01        -$0.59

                                    60%       +$3.36        +$2.77       +$2.11       +$1.46       +$0.83

                                    70%       +$4.54        +$3.92       +$3.24       +$2.57       +$1.92

                                    80%       +$5.22        +$4.59       +$3.89       +$3.21       +$2.54

                                    90%       +$5.57        +$4.93       +$4.23       +$3.54       +$2.86


         * Spring 2007 tim etable, fares, year-to-date O TP, and FY07 annual forecast (prepared 6/14/07)
         ** all travel tim e changes applied to tim es between Eugene, O R and San Luis O bispo, CA

                                                                6
Revenue Loss per Delay Minute by Route

As described in the Methodology section, the amount of revenue that is
associated with each train delay can be calculated as follows:

             REV
       DMin /(10 K _ TM )    1%REV
                                 OTP 
                                       DMins /(10 K _ TM )
                                           1% OTP



When the change in Revenue per 1% change OTP is divided by the change in
Delay Minutes per 1% improvement in OTP, the product is the change in
Revenue per Delay Minute.

Using the data for the Coast Starlight as an example:

      $11,000 (Rev per 1% Change in OTP) ÷ 20 DMins/1%OTP

              =        $550 per DMin (per 10K TMs)


To get to Revenue per Delay Minutes, this result is multiplied by the inverse of
the number of 10K TMs.

                Re v
         DMin /(10 K _ TM )
                                X        1
                                    10 K _ TMs
                                                        Re v
                                                       DelayMin



Following the Coast Starlight example with 943,000 TMs for the Coast Starlight in
FY07 (94.3 10K TMs), the Revenue per Delay Minute is:

              =        ($550 per DMin per 10k TM) X (1/94.3 10K TMs)

              =        $5.83 per Delay Minute


This calculation was done for every route and the resulting Revenue impact per
Delay Minute for all routes is shown in Table 1 on the next page.




                                               7
         Table 1 - Estimated Revenue Impact per Delay Minute per 10K Train Miles

                                  FY07
                                                   Change in     Change in                   Revenue
                                                 Delay Mins per Annual Rev.                  Loss per
                                                 10K TM per 1%    per 1 %   Annual Rev Per Incremental
                                Train Miles     Improvement in Change in     Delay Min per  Delay Min.
NEC                             Operated              OTP       OTP $(000s) 10k TM $(000's)     ($)

      Acela                      3,191,152                 15.5   $   1,080.00   $        69.77   $      218.63
      Regional (1)               5,760,846                 25.7   $     976.43   $        37.98   $       65.93


Long Distance
    Auto Train (2)                 618,063                 11.1   $    121.00    $        10.87   $      175.90
    Zephyr (3)                   1,712,075                 17.7   $     14.00    $         0.79   $        4.62
    Capitol Ltd. (3)               569,872                 22.2   $      4.00    $         0.18   $        3.16
    Cardinal (4)                   325,083                 28.0   $     18.33    $         0.66   $       20.16
    City of New Orleans            682,043                 33.1   $      4.29    $         0.13   $        1.90
    Coast Starlight (3)            943,277                 20.0   $     11.00    $         0.55   $        5.83
    Crescent                       947,178                 20.4   $    110.00    $         5.38   $       56.82
    Empire Builder               1,839,750                 16.0   $     92.00    $         5.76   $       31.31
    Lake Shore Ltd.                809,344                 44.3   $     36.36    $         0.82   $       10.14
    Silver Services              2,634,799                 29.4   $    137.14    $         4.67   $       17.73
    Southwest Chief              1,605,182                 14.0   $    117.50    $         8.40   $       52.32
    Sunset Ltd. (3)                616,089                 56.8   $      2.50    $         0.04   $        0.71
    Texas Eagle                    929,152                 29.8   $     34.29    $         1.15   $       12.39


State Supported and Other Short Distance Corridors
     Capitol Corridor       1,146,051                      48.5   $     84.00    $         1.73   $       15.10
     Cascades                 869,000                      36.1   $    440.00    $        12.19   $      140.26
     Downeaster               325,463                      32.8   $     20.00    $         0.61   $       18.74
     Carolinian (3)           496,193                      27.0   $     22.14    $         0.82   $       16.51
     Empire (5)             2,076,980                      39.7   $    751.37    $        18.94   $       91.17
     Heartland Flyer (3)      141,133                      31.2   $      3.13    $         0.10   $        7.11
     Hiawatha                 427,541                      97.8   $     20.00    $         0.20   $        4.78
     Hoosier                   81,754                      55.8   $      2.50    $         0.04   $        5.48
     Illinois (6)           1,573,412                      31.1   $    150.50    $         4.84   $       30.76
     Keystone (7)           1,340,883                      20.0   $     38.00    $         1.90   $       14.17
     Michigan (8)             995,605                      32.0   $     87.17    $         2.73   $       27.39
     Missouri (4, 9)          356,853                      47.8   $      5.88    $         0.12   $        3.45
     Pacific Surfliner      1,607,006                      38.8   $    218.00    $         5.62   $       35.00
     Pennsylvanian            321,618                      28.7   $     16.67    $         0.58   $       18.03
     Piedmont                 123,665                      28.1   $      3.33    $         0.12   $        9.60
     San Joaquins           1,343,304                      29.5   $    237.14    $         8.04   $       59.84




      Notes:
               (1) Includes Vermonter, WAS-NPN, NHV-SPG
               (2) Used delta revenue at 70% - 80% range to reflects post-schedule change OTP
               (3) Excluded Zero OTP datapoints in determining OTP/Delay Mins per 10K TM relationship.
               (4) Used FY07 datapoints only - schedule change in Oct FY06.
               (5) Includes Ethan Allen, Adirondack, Albany-Nia Falls
               (6) 2 years data used due to change in service from FY05 to FY06.
                              Includes CHI-CDL, CHI-QCY
               (7) FY07 datapoints only - Major schedule change due to infrastructure projects
               (8) Includes Blue Water (CHI-Pt. Huron), Pere Marquette (CHI-G. Rapids)
               (9) 2 years data used due to change in service from FY05 to FY06.




                                                       8
       As previously stated, the Route Revenue Loss per Delay Minute was
multiplied by the equipment delays in FY07 for each route. The financial impact
due to specific equipment type was derived by consolidating the losses for each
equipment type and their corresponding delay minutes from all routes.

Annual Minutes of Train Delays by Equipment Type

       The annual minutes of train delays was developed by first determining by
route the number of minutes of delay due to either car or engine failures and
then determining the delays associated with each type of equipment, such as
Superliners, Heritage, P42s, etc.

       We extracted the FY07 equipment delay minutes by route from Amtrak’s
On Time Performance and Delay Reporting System. In this study, we were only
interested in equipment delays and therefore extracted the minutes for all delay
codes associated with equipment. They are:
       CAR - Car failures
       ENG – Engine failures
       ITM – Initial Terminal delay due to Mechanical
       CCR – Cab Car failures 5

       In this system, ITM (Initial Terminal delays due to Mechanical) is a
generic code that does not identify the type of car or locomotive that caused the
delay. Therefore, we allocated the ITM delay minutes to CARs and ENGs in
proportion to their respective delay minutes. In some cases, like Acela, only one
type of equipment is used. However, for routes that operated with more than
one type of equipment, CAR delays were allocated to the different car types in
proportion to the respective car miles for each car type as identified in Amtrak
Route Profitability System (RPS). In our exercise, we disregarded occasionally
used equipment that we considered not material in this analysis; i.e., equipment
with relatively low car miles in RPS. Similarly for locomotives, if a route used
both Electric and Diesel locomotives, we allocated the ENG delay minutes in
proportion to the locomotive miles for that route.

      A sample of how delay minutes were proportioned to specific types of
equipment is shown in Figure 3 on the next page.




5
 Revenue impacts for Cab Car failures were not considered in cases where the magnitude of the delays is
not material relative to the delays caused by CARs and ENGs.
                                                   9
    Figure 3 – Allocation of Delay Minutes to Specific Equipment Type

                                    Allocate     Total       Allocate to                    RPS
           Equipment      Delays       ITM      Delays      Equip Types Equipment         Car Miles
           CAR             1,762        768         2,530
                                                                   2,155 Superliners      9,122,832
                                                                     375 Heritage         1,587,652
           ENG             4,989       2,173        7,162          7,162 P42
           ITM             2,941
           CCR                  9   (Insignificant - ignored)




Impact of Delays by Equipment Type

       The revenue impact due to delays attributable to equipment type for each
route was calculated by multiplying the total delay minutes in FY07 attributable
to each type of equipment by the route revenue loss per delay minute from
Table 1. A sample calculation is show in Figure 4 below for the Coast Starlight
example.

         Figure 4 – Coast Starlight Revenue Loss by Equipment Type

                                        Delay               Loss          Total FY07
                   Equipment           Minutes           Per Min         Loss ($000)


                   Superliners             2,155         $ 5.83          $        12.56
                   Heritage                  375         $ 5.83          $         2.19
                   P42                     7,162         $ 5.83          $        41.76




                                                Results
         Finally, the revenue impact attributable to delays for each equipment type
was derived by consolidating the Delay Minutes and the Revenue Loss per Delay
Minute by equipment type for all routes shown in Table 2 on the next page.
These results provide a means to quantify the revenue impact of proposed
investments in Amtrak’s rolling stock. For every investment in equipment
reliability, we first need to estimate its impact on delays resulting from
improvement in reliability. The revenue impact can then be estimated using the
relationship identified in the tables linking equipment delays to revenue 6 .


6
  The results are based on service characteristics and equipment consists in effect in FY07. Changes in
schedules, consists or performance will affect the results for individual routes and could affect the overall
results, depending on the magnitude of the changes. Therefore, periodic updates to this study are
recommended.
                                                      10
    Table 2 – Revenue Impact Due to Equipment Delays
                                      Total Rev          FY 07 Total
                                       Loss per           Rev Loss
   Equipment/Services   Delay Mins   Delay Min ($)         ($000's)

Acela                       13,525   $     218.63    $      2,956.94

Amfleet Is
Regional                     8,841   $      65.93    $        582.87
Crescent                        20   $      56.82    $          1.12
Lake Shore Ltd                 123   $      10.14    $          1.25
Silver Services                651   $      17.73    $         11.54
Cascades                       180   $     140.26    $         25.19
Downeaster                     113   $      18.74    $          2.11
Carolinian                     666   $      16.51    $         10.99
Empire                       2,197   $      91.17    $        200.27
Illinois                       212   $      30.76    $          6.52
Keystone                     1,200   $      14.17    $         17.01
Michigan                       172   $      27.39    $          4.72
Missouri                        25   $       3.45    $          0.08
Pennsylvanian                  249   $      18.03    $          4.50
                            14,648   $      59.27    $        868.17

AEM7s/HHPs
Regional                    28,542   $      65.93    $      1,881.66
Cardinal                       415   $      20.16    $          8.37
Crescent                       548   $      56.82    $         31.13
Silver Services              2,015   $      17.73    $         35.74
Keystone                     9,362   $      14.17    $        132.65
Pennsylvanian                  439   $      18.03    $          7.91
                            41,321   $      50.76    $      2,097.47

Superliners
AutoTrain                      828   $     175.90    $        145.70
Zephyr                       2,598   $       4.62    $         12.00
Capitol Ltd                  2,416   $       3.16    $          7.62
City of New Orleans            900   $       1.90    $          1.71
Coast Starlight              2,155   $       5.83    $         12.56
Empire Builder               4,004   $      31.31    $        125.37
Southwest Chief              2,974   $      52.32    $        155.59
Sunset Ltd                     412   $       0.71    $          0.29
Texas Eagle                  1,682   $      12.39    $         20.84
Capitol Corridor               270   $      15.10    $          4.08
Cascades                        67   $     140.26    $          9.46
Heartland Flyer                115   $       7.11    $          0.81
Pacific Surfliners             134   $      35.00    $          4.68
Missouri                        11   $       3.45    $          0.04
                            18,565   $      26.97    $        500.74

P42s
Regional                     5,039   $      65.93    $        332.22
AutoTrain                    1,901   $     175.90    $        334.33
Zephyr                      10,149   $       4.62    $         46.86
Capitol Ltd                  4,830   $       3.16    $         15.24
Cardinal                     2,067   $      20.16    $         41.68
City of New Orleans          2,906   $       1.90    $          5.51
Coast Starlight              7,162   $       5.83    $         41.74
Crescent                     4,407   $      56.82    $        250.40
Empire Builder               9,575   $      31.31    $        299.83
Lake Shore Ltd               6,245   $      10.14    $         63.33
Silver Services             13,458   $      17.73    $        238.67
Southwest Chief             10,242   $      52.32    $        535.91
Sunset Ltd                   3,136   $       0.71    $          2.24
Texas Eagle                  4,958   $      12.39    $         61.44
Carolinian                   3,016   $      16.51    $         49.80
Heartland Flyer                323   $       7.11    $          2.30
Hiawatha                     1,922   $       4.78    $          9.19
Hoosier                        550   $       5.48    $          3.02
Illinois                     9,118   $      30.76    $        280.43
Michigan                    11,941   $      27.39    $        327.03
Missouri                     1,086   $       3.45    $          3.74
Pennsylvanian                1,701   $      18.03    $         30.67
                           115,731   $      25.71    $      2,975.58

P40s
Downeaster                     487   $      18.74    $          9.13

                          11
Table 2 – Revenue Impact Due to Equipment Delays (Con’t)
                                         Total Rev          FY 07 Total
                                          Loss per           Rev Loss
   Equipment/Services   Delay Mins      Delay Min ($)         ($000's)

Amfleet IIs
Cardinal                       685      $      20.16    $         13.82
Crescent                     1,298      $      56.82    $         73.74
Lake Shore Ltd               1,678      $      10.14    $         17.02
Silver Services              7,474      $      17.73    $        132.55
Carolinian                      84      $      16.51    $          1.38
Empire                         310      $      91.17    $         28.29
Pennsylvanian                  474      $      18.03    $          8.55
                            12,003      $      22.94    $        275.34

Viewliners
Cardinal                          178   $      20.16    $          3.59
Crescent                          527   $      56.82    $         29.92
Lake Shore Ltd                    897   $      10.14    $          9.10
Silver Services                 3,205   $      17.73    $         56.84
                                4,806   $      20.69    $         99.44

Heritage
Zephyr                            339   $       4.62    $          1.57
Capitol Ltd                       331   $       3.16    $          1.04
Coast Starlight                   375   $       5.83    $          2.19
Crescent                          532   $      56.82    $         30.21
Empire Builder                    415   $      31.31    $         13.00
Lake Shore Ltd                    765   $      10.14    $          7.76
Silver Services                 3,130   $      17.73    $         55.50
Southwest Chief                   392   $      52.32    $         20.52
Sunset Ltd                         43   $       0.71    $          0.03
Carolinian                        125   $      16.51    $          2.07
Heartland Flyer                   121   $       7.11    $          0.86
                                6,567   $      20.52    $        134.73


Horizons
Cardinal                           39   $      20.16    $          0.78
Hiawatha                          603   $       4.78    $          2.89
Hoosier                         1,050   $       5.48    $          5.75
Illinois                        1,243   $      30.76    $         38.24
Michigan                        1,306   $      27.39    $         35.77
Missouri                          129   $       3.45    $          0.45
Pacific Surfliners                164   $      35.00    $          5.75
                                4,535   $      19.76    $         89.63

F59s
Capitol Corridor             5,278      $      15.10    $         79.69
Cascades                     5,932      $     140.26    $        831.95
Pacific Surfliners           7,527      $      35.00    $        263.45
Piedmont                       224      $       9.60    $          2.15
San Joaquins                 7,205      $      59.84    $        431.17
                            26,166      $      61.47    $      1,608.41

Surfliners
Pacific Surfliners              2,223   $      35.00    $         77.82
Pacific Surfliners                184   $      35.00    $          6.44
                                2,407   $      35.00    $         84.26

California cars
Capitol Corridor                4,720   $      15.10    $         71.27
Capitol Corridor                  130   $      15.10    $          1.96
San Joaquins                    3,615   $      59.84    $        216.33
San Joaquins                       40   $      59.84    $          2.39
                                8,505   $      34.33    $        291.96

P32DMs
Lake Shore Ltd                 480      $      10.14    $          4.87
Empire                       9,878      $      91.17    $        900.58
                            10,358      $      87.42    $        905.44


Talgo
Cascades                        1,199   $     140.26    $        168.23

Metro Cab Coach
Keystone                        3,112   $      14.17    $         44.10

NC Cars
Piedmont                          11    $       9.60    $          0.10

F40CabBag
Cascades                          66    $     140.26    $          9.26
Illinois                          337   $      30.76    $         10.36
                                 403    $      48.69    $         19.62

Total                      284,351      $      46.17    $     13,129.30


                           12
       Since Amtrak does not directly benefit from increases in revenue on all
routes, the total revenue loss was also broken down between State revenue loss
and Amtrak revenue loss shown in Table 2B below.

                      Table 2B – Revenue Impact Due to Equipment Delays
                                      Total Rev          FY 07 Total        State Rev      FY 07 State        Amtrak Rev     FY 07 Amtrak
                                       Loss per           Rev Loss           Loss per       Rev Loss           Loss per       Rev Loss
   Equipment/Services   Delay Mins   Delay Min ($)         ($000's)        Delay Min ($)     ($000's)        Delay Min ($)     ($000's)

Acela                       13,525   $     218.63    $      2,956.94                                         $     218.63    $   2,956.94

Amfleet Is
Regional                     8,841   $      65.93    $        582.87                                         $      65.93    $    582.87
Crescent                        20   $      56.82    $          1.12                                         $      56.82    $      1.12
Lake Shore Ltd                 123   $      10.14    $          1.25                                         $      10.14    $      1.25
Silver Services                651   $      17.73    $         11.54                                         $      17.73    $     11.54
Cascades                       180   $     140.26    $         25.19                                         $     140.26    $     25.19
Downeaster                     113   $      18.74    $          2.11                                         $      18.74    $      2.11
Carolinian                     666   $      16.51    $         10.99                                         $      16.51    $     10.99
Empire                       2,197   $      91.17    $        200.27 (1)                                     $      91.17    $    200.27
Illinois                       212   $      30.76    $          6.52                                         $      30.76    $      6.52
Keystone                     1,200   $      14.17    $         17.01                                         $      14.17    $     17.01
Michigan                       172   $      27.39    $          4.72                                         $      27.39    $      4.72
Missouri                        25   $       3.45    $          0.08                                         $       3.45    $      0.08
Pennsylvanian                  249   $      18.03    $          4.50                                         $      18.03    $      4.50
                            14,648   $      59.27    $        868.17                                         $      59.27    $    868.17

AEM7s/HHPs
Regional                    28,542   $      65.93    $      1,881.66                                         $      65.93    $   1,881.66
Cardinal                       415   $      20.16    $          8.37                                         $      20.16    $       8.37
Crescent                       548   $      56.82    $         31.13                                         $      56.82    $      31.13
Silver Services              2,015   $      17.73    $         35.74                                         $      17.73    $      35.74
Keystone                     9,362   $      14.17    $        132.65                                         $      14.17    $     132.65
Pennsylvanian                  439   $      18.03    $          7.91                                         $      18.03    $       7.91
                            41,321   $      50.76    $      2,097.47                                         $      50.76    $   2,097.47

Superliners
AutoTrain                      828   $     175.90    $        145.70                                         $     175.90    $    145.70
Zephyr                       2,598   $       4.62    $         12.00                                         $       4.62    $     12.00
Capitol Ltd                  2,416   $       3.16    $          7.62                                         $       3.16    $      7.62
City of New Orleans            900   $       1.90    $          1.71                                         $       1.90    $      1.71
Coast Starlight              2,155   $       5.83    $         12.56                                         $       5.83    $     12.56
Empire Builder               4,004   $      31.31    $        125.37                                         $      31.31    $    125.37
Southwest Chief              2,974   $      52.32    $        155.59                                         $      52.32    $    155.59
Sunset Ltd                     412   $       0.71    $          0.29                                         $       0.71    $      0.29
Texas Eagle                  1,682   $      12.39    $         20.84                                         $      12.39    $     20.84
Capitol Corridor               270   $      15.10    $          4.08                                         $      15.10    $      4.08
Cascades                        67   $     140.26    $          9.46                                         $     140.26    $      9.46
Heartland Flyer                115   $       7.11    $          0.81                                         $       7.11    $      0.81
Pacific Surfliners             134   $      35.00    $          4.68                                         $      35.00    $      4.68
Missouri                        11   $       3.45    $          0.04                                         $       3.45    $      0.04
                            18,565   $      26.97    $        500.74                                         $      26.97    $    500.74

P42s
Regional                     5,039   $      65.93    $        332.22                                         $      65.93    $     332.22
AutoTrain                    1,901   $     175.90    $        334.33                                         $     175.90    $     334.33
Zephyr                      10,149   $       4.62    $         46.86                                         $       4.62    $      46.86
Capitol Ltd                  4,830   $       3.16    $         15.24                                         $       3.16    $      15.24
Cardinal                     2,067   $      20.16    $         41.68                                         $      20.16    $      41.68
City of New Orleans          2,906   $       1.90    $          5.51                                         $       1.90    $       5.51
Coast Starlight              7,162   $       5.83    $         41.74                                         $       5.83    $      41.74
Crescent                     4,407   $      56.82    $        250.40                                         $      56.82    $     250.40
Empire Builder               9,575   $      31.31    $        299.83                                         $      31.31    $     299.83
Lake Shore Ltd               6,245   $      10.14    $         63.33                                         $      10.14    $      63.33
Silver Services             13,458   $      17.73    $        238.67                                         $      17.73    $     238.67
Southwest Chief             10,242   $      52.32    $        535.91                                         $      52.32    $     535.91
Sunset Ltd                   3,136   $       0.71    $          2.24                                         $       0.71    $       2.24
Texas Eagle                  4,958   $      12.39    $         61.44                                         $      12.39    $      61.44
Carolinian                   3,016   $      16.51    $         49.80                                         $      16.51    $      49.80
Heartland Flyer                323   $       7.11    $          2.30                                         $       7.11    $       2.30
Hiawatha                     1,922   $       4.78    $          9.19                                         $       4.78    $       9.19
Hoosier                        550   $       5.48    $          3.02                                         $       5.48    $       3.02
Illinois                     9,118   $      30.76    $        280.43                                         $      30.76    $     280.43
Michigan                    11,941   $      27.39    $        327.03                                         $      27.39    $     327.03
Missouri                     1,086   $       3.45    $          3.74                                         $       3.45    $       3.74
Pennsylvanian                1,701   $      18.03    $         30.67                                         $      18.03    $      30.67
                           115,731   $      25.71    $      2,975.58                                         $      26.88    $   2,975.58

P40s
Downeaster                     487   $      18.74    $          9.13       $      18.74    $      9.13 (2)


                                                              13
                   Table 2B – Revenue Impact Due to Equipment Delays (Con’t)
                                             Total Rev          FY 07 Total        State Rev      FY 07 State           Amtrak Rev     FY 07 Amtrak
                                              Loss per           Rev Loss           Loss per       Rev Loss              Loss per       Rev Loss
   Equipment/Services       Delay Mins      Delay Min ($)         ($000's)        Delay Min ($)     ($000's)           Delay Min ($)     ($000's)

Amfleet IIs
Cardinal                            685     $       20.16   $         13.82                                            $      20.16    $      13.82
Crescent                          1,298     $       56.82   $         73.74                                            $      56.82    $      73.74
Lake Shore Ltd                    1,678     $       10.14   $         17.02                                            $      10.14    $      17.02
Silver Services                   7,474     $       17.73   $        132.55                                            $      17.73    $     132.55
Carolinian                           84     $       16.51   $          1.38                                            $      16.51    $       1.38
Empire                              310     $       91.17   $         28.29 (1)                                        $      91.17    $      28.29
Pennsylvanian                       474     $       18.03   $          8.55                                            $      18.03    $       8.55
                                 12,003     $       22.94   $        275.34                                            $      22.94    $     275.34

Viewliners
Cardinal                             178    $       20.16   $          3.59                                            $      20.16    $       3.59
Crescent                             527    $       56.82   $         29.92                                            $      56.82    $      29.92
Lake Shore Ltd                       897    $       10.14   $          9.10                                            $      10.14    $       9.10
Silver Services                    3,205    $       17.73   $         56.84                                            $      17.73    $      56.84
                                   4,806    $       20.69   $         99.44                                            $      20.69    $      99.44

Heritage
Zephyr                               339    $        4.62   $          1.57                                            $       4.62    $       1.57
Capitol Ltd                          331    $        3.16   $          1.04                                            $       3.16    $       1.04
Coast Starlight                      375    $        5.83   $          2.19                                            $       5.83    $       2.19
Crescent                             532    $       56.82   $         30.21                                            $      56.82    $      30.21
Empire Builder                       415    $       31.31   $         13.00                                            $      31.31    $      13.00
Lake Shore Ltd                       765    $       10.14   $          7.76                                            $      10.14    $       7.76
Silver Services                    3,130    $       17.73   $         55.50                                            $      17.73    $      55.50
Southwest Chief                      392    $       52.32   $         20.52                                            $      52.32    $      20.52
Sunset Ltd                            43    $        0.71   $          0.03                                            $       0.71    $       0.03
Carolinian                           125    $       16.51   $          2.07                                            $      16.51    $       2.07
Heartland Flyer                      121    $        7.11   $          0.86                                            $       7.11    $       0.86
                                   6,567    $       20.52   $        134.73                                            $      20.52    $     134.73


Horizons
Cardinal                              39    $       20.16   $          0.78                                            $      20.16    $       0.78
Hiawatha                             603    $        4.78   $          2.89                                            $       4.78    $       2.89
Hoosier                            1,050    $        5.48   $          5.75                                            $       5.48    $       5.75
Illinois                           1,243    $       30.76   $         38.24                                            $      30.76    $      38.24
Michigan                           1,306    $       27.39   $         35.77                                            $      27.39    $      35.77
Missouri                             129    $        3.45   $          0.45                                            $       3.45    $       0.45
Pacific Surfliners                   164    $       35.00   $          5.75                                            $      35.00    $       5.75
                                   4,535    $       19.76   $         89.63                                            $      19.76    $      89.63

F59s
Capitol Corridor                  5,278     $       15.10   $         79.69                                            $      15.10    $      79.69
Cascades                          5,932     $      140.26   $        831.95       $    140.26     $    831.95 (3)
Pacific Surfliners                7,527     $       35.00   $        263.45                                            $      35.00    $     263.45
Piedmont                            224     $        9.60   $          2.15                                            $       9.60    $       2.15
San Joaquins                      7,205     $       59.84   $        431.17       $      59.84    $     431.17 (4)
                                 26,166     $       61.47   $      1,608.41       $      96.15    $   1,263.12         $      26.50    $     345.30

Surfliners
Pacific Surfliners                 2,223    $       35.00   $         77.82                                            $      35.00    $      77.82
Pacific Surfliners                   184    $       35.00   $          6.44                                            $      35.00    $       6.44
                                   2,407    $       35.00   $         84.26                                            $      35.00    $      84.26

California cars
Capitol Corridor                   4,720    $       15.10   $         71.27                                            $      15.10    $      71.27
Capitol Corridor                     130    $       15.10   $          1.96                                            $      15.10    $       1.96
San Joaquins                       3,615    $       59.84   $        216.33       $      59.84    $    216.33 (4)
San Joaquins                          40    $       59.84   $          2.39       $      59.84    $      2.39 (4)
                                   8,505    $       34.33   $        291.96       $      59.84    $    218.72          $      15.10    $      73.24

P32DMs
Lake Shore Ltd                      480     $       10.14   $          4.87                                            $      10.14    $       4.87
Empire                            9,878     $       91.17   $        900.58 (1)                                  (1)   $      91.17    $     900.58
                                 10,358     $       87.42   $        905.44                                            $      87.42    $     905.44


Talgo
Cascades                           1,199    $      140.26   $        168.23       $    140.26     $    168.23 (3)

Metro Cab Coach
Keystone                           3,112    $       14.17   $         44.10                                            $      14.17    $      44.10

NC Cars
Piedmont                              11    $        9.60   $          0.10                                            $       9.60    $        0.10

F40CabBag
Cascades                             66     $      140.26   $          9.26       $    140.26     $       9.26 (3)
Illinois                             337    $       30.76   $         10.36                                            $      30.76    $      10.36
                                    403     $       48.69   $         19.62       $    140.26     $       9.26         $      30.76    $      10.36

Total                           284,351     $       46.17   $     13,129.30       $      89.97    $   1,668.46         $      43.95    $   11,460.84

Note: State Supported Services
(1) - NY assumes revenue risk on the Adirondack -- not segregated for this one train.
(2) - NNEPRA has revenue risk.
(3) - Washington State assumed risk on one PDX-SEA RT - not segregated for this one RT
(4) - Caltrans has revenue risk.

                                                                    14
Appendix I - Route OTP vs. Delay minutes




                   15
                                     NEC
                   Acela - OTP Vs. Delay Mins. per 10K TM

       100.0%

       95.0%
                                                        y = -0.0006x + 1.0624
       90.0%                                                    2
                                                               R = 0.915
                   10%
       85.0%
OTP




       80.0%
                                -155
       75.0%

       70.0%

       65.0%

       60.0%
            100      200        300            400       500        600         700
                            Delay Minutes per 10K Train Miles



                  Regional - OTP Vs. Delay Mins. per 10K TM


       95.0%


                                                     y = -0.0004x + 1.0654
       90.0%                                               2
                                                         R = 0.8706

       85.0%

                     10%
 OTP




       80.0%


       75.0%

                                        -257
       70.0%


       65.0%
            400     500        600          700         800         900      1000
                           Delay Minutes per 10K Train Miles


                                       16
                                 Short Distance



                  Capitol Corridor - OTP Vs. Delay Mins. per 10K TM

      100.0%


      90.0%

                                                        y = -0.0002x + 1.2169
      80.0%                                                    2
                                                             R = 0.9269
                        10%
OTP




      70.0%

                                      -485
      60.0%


      50.0%


      40.0%
           1000        1500       2000           2500      3000       3500      4000
                               Delay Minutes per 10K Train Miles



                    Cascades - OTP Vs. Delay Mins. per 10K TM

      90.0%

      80.0%
                                                        y = -0.0003x + 1.1252
      70.0%                                                    2
                                                              R = 0.9335
      60.0%
OTP




      50.0%
                              10%
      40.0%

      30.0%                               -361

      20.0%

      10.0%
           1000        1500       2000           2500      3000       3500      4000
                               Delay Minutes per 10K Train Miles

                                         17
                   Downeaster - OTP Vs. Delay Mins. per 10K TM

      100.0%

       95.0%
                                                          y = -0.0003x + 1.031
       90.0%                                                     2
                                                                R = 0.9629
       85.0%

       80.0%
OTP




       75.0%                      10%

       70.0%
                                             -328
       65.0%

       60.0%

       55.0%

       50.0%
               -            500                 1,000                1,500       2,000
                               Delay Minutes per 10K Train Miles



                   C arolinian - OTP V s. D elay Mins. per 10K TM
                                 Zero OTPs E xcluded
      70.0%

      60.0%
                                                                      -0.0015x
                                                        y = 3.5002e
      50.0%                                                 2
                                                          R = 0.6593
      40.0%
OTP




      30.0%
                      10%
      20.0%
                                -270
      10.0%

       0.0%
           1000         1500            2000             2500             3000     3500
                               D elay Minutes per 10K Train Miles


                                        18
                      Empire - OTP Vs. Delay Mins. per 10K TM

      90.0%

                                                         y = -0.0003x + 1.1059
      80.0%                                                        2
                                                                 R = 0.9028

      70.0%
                             10%
OTP




      60.0%
                                      -397

      50.0%


      40.0%


      30.0%
           1000             1500             2000             2500               3000
                               Delay Minutes per 10K Train Miles




                  Heartland Flyer - OTP Vs. Delay Mins. per 10K TM
                                Zero OTPs Excluded

      100.0%
      90.0%
      80.0%
      70.0%
                                                      y = -0.0003x + 1.3171
      60.0%                                                  2
                                                           R = 0.9532
OTP




      50.0%
      40.0%                         10%
      30.0%
                                          -312
      20.0%
      10.0%
        0.0%
            1000            2000             3000            4000             5000
                              Delay Minutes per 10K Train Miles


                                        19
                  Hiawatha - OTP Vs. Delay Mins. per 10K TM

      100.0%

                                                       y = -0.1179Ln(x) + 1.7277
      95.0%                                                      2
                                                             R = 0.4949
                  10%
      90.0%
OTP




      85.0%

                                                -978
      80.0%


      75.0%


      70.0%
           500                   1000                     1500                   2000
                             Delay Minutes per 10K Train Miles




                  Hoosier - OTP Vs. Delay Mins. per 10K TM

      80.0%

      70.0%
                                                                      -0.0004x
                                                           y = 1.487e
      60.0%                                                      2
                                                              R = 0.8354
      50.0%
                           10%
OTP




      40.0%
                                  -558
      30.0%

      20.0%

      10.0%

       0.0%
           1000     2000         3000         4000        5000       6000        7000
                            Delay Minutes per 10K Train Miles

                                         20
                  Illinois - OTP Vs. Delay Mins per 10K TM

      90.0%
                                                        y = -0.5654Ln(x) + 4.7744
      80.0%                                                      2
                                                                R = 0.8998
      70.0%
OTP




      60.0%
                              10%
      50.0%

      40.0%                                      -311

      30.0%
          1,000    1,200      1,400     1,600       1,800      2,000    2,200       2,400
                           Delay Minutes per 10K Train Miles




                  Keystone - OTP Vs. Delay Mins. per 10K TM
                             FY07 Datapoints Only
      100.0%

      95.0%
                                                          y = -0.0005x + 1.0633
      90.0%                                                      2
                                                                R = 0.9279
      85.0%       10%
OTP




      80.0%
                               -200
      75.0%

      70.0%

      65.0%

      60.0%
           100          300           500          700         900       1100         1300
                               Delay Minutes per 10K Train Miles




                                            21
                    Michigan - OTP Vs. Delay Mins. per 10K TM

      60.0%


      50.0%

                                                                             -0.0009x
                                                                  y = 2.7777e
      40.0%                                                           2
              10%                                                   R = 0.8661
OTP




      30.0%
                        -320
      20.0%


      10.0%


       0.0%
           2000              2500              3000               3500             4000
                               Delay Minutes per 10K Train Miles




                  Missouri - OTP Vs. Delay Mins per 10K TM
                              Zero OTPs Excluded
              Adjusted for schedule change per April 06 Timetable



      60.0%
      50.0%
                                                      y = -0.6479Ln(x) + 5.5075
      40.0%                                                   2
                                                            R = 0.4087
OTP




      30.0%
                    10%
      20.0%
                                    -478
      10.0%
      0.0%
         2,000       2,500       3,000        3,500      4,000       4,500       5,000
                               Delay Mins. Per 10K Train Miles




                                         22
                     Pacific Surfliner - OTP Vs. D elay Mins. per 10K TM

      100.0%
       95.0%
                                                              y = -0.0003x + 1.1983
       90.0%                                                          2
                                                                    R = 0.7884
       85.0%

       80.0%
OTP




                                    10%
       75.0%
       70.0%
                                                 -388
       65.0%

       60.0%

       55.0%
       50.0%
            1000                       1500                       2000                2500
                                   D elay Minutes per 10K Train Miles




                     Pennsylvanian - OTP Vs. Delay Mins. per 10K TM

      100.0%

                                                        y = -0.0003x + 1.1244
       90.0%                                                  2
                                                            R = 0.5985
       80.0%
                            10%
       70.0%
OTP




                                          -287
       60.0%

       50.0%

       40.0%

       30.0%
               500                   1,000                    1,500               2,000
                                  Delay Minutes per 10K Train Miles




                                             23
                    Piedmont - OTP Vs. Delay Mins. per 10K TM

       100.0%

        90.0%
                                                     y = -0.0004x + 1.1345
        80.0%                                                2
                                                         R = 0.8834
        70.0%

        60.0%
 OTP




                                     10%
        50.0%

        40.0%                                 -281

        30.0%

        20.0%

        10.0%
             500          1000          1500          2000           2500     3000
                                 Delay Minutes per 10K Train Miles




                  San Joaquins - OTP Vs. Delay Mins. per 10K TM

      90.0%


      80.0%

                                                     y = -0.0003x + 1.2104
      70.0%                                                  2
                                                          R = 0.8644
                    10%
OTP




      60.0%

                              -295
      50.0%


      40.0%


      30.0%
           1000            1500               2000               2500        3000
                             Delay Minutes per 10K Train Miles


                                         24
                                    Long Distance



                     Auto Train - OTP Vs. Delay Mins. per 10K TM
                       Excluding Schedule Change Datapoints

       80.0%

       70.0%

       60.0%
                                                                           -0.0012x
                                                                y = 2.9929e
       50.0%                                                         2
               10%                                                 R = 0.8301
 OTP




       40.0%
                         -111
       30.0%

       20.0%

       10.0%

        0.0%
            1000      1500          2000          2500      3000       3500            4000
                                  Delay Minutes per 10K Train Miles




                     Zephyr - OTP Vs. Delay Mins. per 10K TM
                               Zero OTPs Excluded

       60.0%


       50.0%


       40.0%
OTP




       30.0%
               10%
                                                                         -0.0019x
                                                             y = 7.1938e
       20.0%                                                       2
                       -177                                     R = 0.2817

       10.0%


       0.0%
           1400      1600       1800       2000      2200     2400     2600           2800
                                Delay Minutes per 10K Train Miles

                                            25
                   Capitol Ltd. - OTP Vs. Delay Mins. per 10K TM
                                 Zero OTPs Excluded

       60.0%
                                                                           -4.2703
                                                                 y = 6E+13x
       50.0%                                                        2
                                                                   R = 0.8529
       40.0%
OTP




       30.0%
                   10%

       20.0%
                           -222
       10.0%


       0.0%
           1500     2000          2500      3000      3500          4000       4500
                                Delay Minutes per 10K Train Miles




                      Cardinal - OTP Vs. Delay Mins. per 10K TM
                                      FY07 Only

       80.0%
                                                      y = -0.8022Ln(x) + 6.5891
       70.0%                                                   2
                                                              R = 0.6073
       60.0%

       50.0%
 OTP




       40.0%                        10%


       30.0%
                                                   -280

       20.0%

       10.0%

        0.0%
            1000         1500             2000            2500          3000          3500
                                  Delay Minutes per 10K Train Miles



                                          26
               City of New Orleans - OTP Vs. Delay Mins. per 10K TM

      100.0%

                                                         y = -0.0003x + 1.2666
      95.0%                                                         2
                                                                R = 0.7012

      90.0%

                             10%
      85.0%
OTP




      80.0%
                                                -331
      75.0%

      70.0%

      65.0%
           800         1000         1200          1400   1600           1800       2000
                               Delay Minutes per 10K Train Miles




                  Coast Starlight - OTP Vs. Delay Mins. per 10K TM
                                Zero OTPs Excluded
      70.0%

      60.0%
                                                                         -5.3892
                                                          y = 7E+17x
      50.0%                                                     2
                                                            R = 0.8335
      40.0%
OTP




      30.0%
                      10%

      20.0%

                              200
      10.0%

       0.0%
           2000       2500          3000         3500    4000           4500       5000
                               Delay Minutes per 10K Train Miles

                                           27
                      Crescent - OTP Vs. Delay Mins. per 10K TM

       90.0%

       80.0%

       70.0%
                                                        y = -0.6654Ln(x) + 5.2505
       60.0%                                                          2
                                                                    R = 0.8497
       50.0%
 OTP




                        10%
       40.0%
                               -204
       30.0%

       20.0%

       10.0%

         0.0%
             500       1000           1500           2000          2500          3000      3500
                                 Delay Minutes per 10K Train Miles


                                       Empire Builder
                               OTP Vs. Delay Mins per 10K TM


       100.0%


       90.0%


       80.0%                                                       y = -0.0006x + 1.4167
                                                                        R2 = 0.8332
                         10%
       70.0%

                                      -160
OTP




       60.0%


       50.0%


       40.0%


       30.0%


       20.0%
                600   800        1000         1200          1400          1600     1800     2000
                                      Delay Minutes per 10K Train Miles




                                              28
             L ake S ho re L td . - O T P V s . D e lay Mins . p e r 1 0 K T M



       5 0 .0 %
       4 5 .0 %
                                                        y = -0 .5 8 5 6 L n (x ) + 4 .9 5 2 8
       4 0 .0 %                                                     2
                  10%                                             R = 0 .6 4 5 1
       3 5 .0 %
       3 0 .0 %
OT P




                               -443
       2 5 .0 %
       2 0 .0 %
       1 5 .0 %
       1 0 .0 %
        5 .0 %
        0 .0 %
              2000         2500             3000             3500               4000            4500
                                  D e la y M in s p e r 1 0 K T ra in M ile s



                     Silver Service - OTP Vs. Delay Mins. per 10K TM

       60.0%


       50.0%


       40.0%
OTP




                                 10%
       30.0%


       20.0%                              -294


                  y = -0.6331Ln(x) + 5.0649
       10.0%               2
                         R = 0.795

        0.0%
            1000                1500                  2000                2500                  3000
                                  Delay Minutes per 10K Train Miles


                                                 29
                  Southwest Chief - OTP Vs. Delay Mins. per 10K TM

      100.0%


      90.0%


      80.0%


      70.0%
OTP




                                           10%
      60.0%
                                                         -140
                        y = -0.0007x + 1.3968
      50.0%                     2
                             R = 0.8031

      40.0%


      30.0%
           500            700               900           1100         1300           1500
                                Delay Minutes per 10K Train Miles


                    Sunset Ltd. - OTP Vs. Delay Mins. per 10K TM
                                 Zero OTPs Excluded
      50.0%

      45.0%

      40.0%

      35.0%

      30.0%
OTP




      25.0%
                                                                           -0.0009x
                       10%                                       y = 4.1747e
      20.0%                                                           2
                                                                    R = 0.6293
      15.0%
                                    -568
      10.0%

       5.0%

       0.0%
           2000              3000                 4000              5000              6000
                                Delay Minutes per 10K Train Miles




                                             30
                 Texas Eagle - OTP Vs. Delay Mins. per 10K TM

      80.0%

      70.0%

      60.0%

      50.0%
                                                   y = -1.1284Ln(x) + 9.462
OTP




      40.0%                                                2
                                                         R = 0.9098

      30.0%
                                10%

      20.0%
                                        -298

      10.0%

      0.0%
          2000      2500       3000       3500      4000        4500     5000
                            Delay Minutes per 10K Train Miles




                                   31
Appendix II - Market Research Ticket Revenue
                   Impact




                     32
                                                  NEC

                             Acela Ticket Revenue Impacts from
                             Travel Time and OTP Improvements
                                          (prepared 11/06/07)


Southend                                                                 (FY08 Base)
                                                      New York-Washington Travel Time
                                                 2:25        2:35        2:45         2:55

                                    75%          +$8.0          -$10.5     -$27.6      -$43.3
                     Southend OTP
                                    80%         +$23.2          +$3.8      -$14.1      -$30.5

                                    85%         +$33.3          +$13.2     -$5.2       -$22.2

       (FY08 Base)                  90%         +$39.2          +$18.8       0         -$17.2

                                    95%         +$43.0          +$22.4     +$3.4       -$14.1


Northend                                                                 (FY08 Base)
                                                         New York-Boston Travel Time
                                                 3:10         3:20        3:30          3:40

                                    70%          +$2.2          -$6.6      -$14.7      -$22.3
                     Northend OTP




                                    75%         +$10.3          +$0.9      -$7.8       -$15.8

                                    80%         +$15.7          +$6.0      -$3.1       -$11.5

       (FY08 Base)                  85%         +$19.3          +$9.3        0         -$8.6

                                    90%         +$21.6          +$11.4     +$2.0       -$6.8


                     Regional Ticket Revenue Impacts from
                      Travel Time and OTP Improvements
                                          (prepared 11/06/07)


Southend                                                                 (FY08 Base)
                                                      New York-Washington Travel Time
                                                 3:00        3:10        3:20         3:30

                                    70%          +$4.4          -$5.8      -$15.4      -$24.4
                     SouthendOTP




                                    75%         +$14.4          +$3.8      -$6.1       -$15.4

       (FY08 Base)                  80%         +$21.0          +$10.1       0         -$9.5

                                    85%         +$24.6          +$13.6     +$3.4       -$6.2

                                    90%         +$26.9          +$15.9     +$5.6       -$4.1


Northend                                                                 (FY08 Base)
                                                         New York-Boston Travel Time
                                                 3:50         4:00        4:10         4:20

                                    70%          +$4.9          -$0.2      -$5.0       -$9.5
                     NorthendOTP




                                    75%          +$8.2          +$3.0      -$2.0       -$6.6

       (FY08 Base)                  80%         +$10.4          +$5.0        0         -$4.8

                                    85%         +$11.2          +$5.8      +$0.7       -$4.1

                                    90%         +$11.7          +$6.3      +$1.2       -$3.7




                                                   33
                                                 Short Distance
                                      Ethan Allen Ticket Revenue Impacts from
                                        Travel Time and OTP Improvements
                                                  (prepared 12/18/07)


                                                          (FY08 Base)
                                                            New York - Rutland Travel Time
                                                5:10        5:25        5:40          5:55       6:10

(FY08 Base)                           33%      +$0.07          0        -$0.07       -$0.14     -$0.20
                On-Time Performance



                                      50%      +$0.21      +$0.13       +$0.06       -$0.01     -$0.08

                                      60%      +$0.34      +$0.26       +$0.18      +$0.11      +$0.03

                                      70%      +$0.44      +$0.36       +$0.28      +$0.20      +$0.12

                                      80%      +$0.50      +$0.42       +$0.33      +$0.25      +$0.18




                                      Vermonter Ticket Revenue Impacts from
                                        Travel Time and OTP Improvements
                                                  (prepared 12/18/07)


                                                          (FY08 Base)
                                                          Washington - St. Albans Travel Time
                                                13:10      13:25        13:40         13:55     14:10

(FY08 Base)                           59%      +$0.08          0        -$0.08       -$0.15     -$0.23
                On-Time Performance




                                      65%      +$0.18      +$0.09       +$0.01       -$0.06     -$0.14

                                      70%      +$0.24      +$0.15       +$0.07       -$0.01     -$0.08

                                      75%      +$0.28      +$0.20       +$0.12      +$0.04      -$0.04

                                      80%      +$0.32      +$0.23       +$0.15      +$0.07      -$0.01


              Albany-Niagara Falls-Toronto Ticket Revenue Impacts from
                         Travel Time and OTP Improvements
                                                  (prepared 12/18/07)


                                                          (FY08 Base)
                                                         New York - Niagara Falls Travel Time
                                                8:50       9:05         9:20          9:35       9:50

(FY08 Base)                           50%      +$0.75          0        -$0.71       -$1.38     -$2.02
                On-Time Performance




                                      60%      +$1.85      +$1.06       +$0.31       -$0.41     -$1.08

                                      70%      +$4.64      +$3.73       +$2.87      +$2.05      +$1.28

                                      75%      +$5.39      +$4.45       +$3.56      +$2.72      +$1.92

                                      80%      +$5.88      +$4.92       +$4.02      +$3.15      +$2.33

                                                          34
                                    Downeaster Ticket Revenue Impacts from
                                      Travel Time and OTP Improvements
                                               (prepared 12/18/07)


                                                       (FY08 Base)
                                                            Boston - Portland Travel Time
                                              2:15          2:30        2:45          3:00   3:15
              On-Time Performance
(FY08 Base)                          78%     +$0.56          0         -$0.52       -$0.99   -$1.42

                                     80%     +$0.61     +$0.04         -$0.48       -$0.95   -$1.38

                                     85%     +$0.70     +$0.12         -$0.40       -$0.88   -$1.32

                                     90%     +$0.76     +$0.17         -$0.36       -$0.84   -$1.28




                 New Haven-Springfield Ticket Revenue Impacts from
                        Travel Time and OTP Improvements
                                               (prepared 12/18/07)


                                                       (FY08 Base)
                                                      Washington - Springfield Travel Time
                                              7:00      7:15         7:30          7:45      8:00
              On-Time Performance




(FY08 Base)                          76%     +$0.69          0         -$0.64       -$1.24   -$1.79

                                     80%     +$0.86     +$0.16         -$0.50       -$1.10   -$1.66

                                     85%     +$1.00     +$0.29         -$0.37       -$0.99   -$1.55

                                     90%     +$1.09     +$0.37         -$0.30       -$0.91   -$1.48



                                     Keystone Ticket Revenue Impacts from
                                      Travel Time and OTP Improvements
                                               (prepared 12/18/07)


                                                       (FY08 Base)
                                                        New York - Harrisburg Travel Time
                                              3:10       3:25         3:40         3:55      4:10
              On-Time Performance




(FY08 Base)                          85%     +$1.76          0         -$1.61       -$3.09   -$4.45

                                     90%     +$1.97     +$0.19         -$1.44       -$2.93   -$4.30

                                     95%     +$2.10     +$0.32         -$1.32       -$2.82   -$4.20




                                                       35
                                    Empire (NYP-ALB) Ticket Revenue Impacts from
                                         Travel Time and OTP Improvements
                                                   (prepared 12/18/07)


                                                           (FY08 Base)
                                                                New York - Albany Travel Time
                                                 2:15           2:30        2:45         3:00     3:15

(FY08 Base)                             62%     +$4.44           0         -$4.03      -$7.68    -$11.00
              On-Time Performance


                                        65%     +$6.55      +$1.91         -$2.30      -$6.12    -$9.59

                                        70%     +$9.15      +$4.26         -$0.18      -$4.21    -$7.86

                                        75%     +$10.87     +$5.82         +$1.23       -$2.94   -$6.71

                                        80%     +$12.00     +$6.84         +$2.15       -$2.11   -$5.96



                                    Chicago-St. Louis Ticket Revenue Impacts from
                                         Travel Time and OTP Improvements
                                                   (prepared 12/18/07)


                                                           (FY08 Base)
                                                             Chicago - St. Louis Travel Time
                                                 5:20        5:35          5:50         6:05      6:20

(FY08 Base)                             43%     +$0.56           0         -$0.53      -$1.02    -$1.49
              On-Time Performance




                                        55%     +$1.24      +$0.65         +$0.09      -$0.44    -$0.95

                                        65%     +$2.50      +$1.84         +$1.21      +$0.62    +$0.05

                                        75%     +$3.57      +$2.85         +$2.17      +$1.52    +$0.91

                                        80%     +$3.85      +$3.12         +$2.42      +$1.76    +$1.13


                                        Hiawatha Ticket Revenue Impacts from
                                         Travel Time and OTP Improvements
                                                   (prepared 12/18/07)


                                                           (FY08 Base)
                                                            Chicago - Milwaukee Travel Time
                                                 1:15        1:30         1:45        2:00        2:15
              On-Time Performance




(FY08 Base)                             89%     +$1.53           0         -$1.35      -$2.54    -$3.58

                                        90%     +$1.55      +$0.02         -$1.34      -$2.53    -$3.57

                                        95%     +$1.62      +$0.08         -$1.28      -$2.48    -$3.53



                                                           36
                                    Wolverine Ticket Revenue Impacts from
                                     Travel Time and OTP Improvements
                                               (prepared 12/18/07)


                                                       (FY08 Base)
                                                            Chicago - Pontiac Travel Time
                                             6:15           6:30        6:45          7:00    7:15

(FY08 Base)                         34%     +$1.13           0         -$1.06       -$2.04   -$2.96
              On-Time Performance


                                    50%     +$2.26      +$1.06         -$0.07       -$1.12   -$2.10

                                    60%     +$3.38      +$2.10         +$0.91       -$0.21   -$1.25

                                    70%     +$6.20      +$4.74         +$3.37       +$2.10   +$0.91

                                    80%     +$7.46      +$5.92         +$4.47       +$3.13   +$1.87


        Chicago-Carbondale (Illini/Saluki) Ticket Revenue Impacts from
                    Travel Time and OTP Improvements
                                               (prepared 12/18/07)


                                                       (FY08 Base)
                                                        Chicago - Carbondale Travel Time
                                             5:15        5:30         5:45        6:00        6:15
              On-Time Performance




(FY08 Base)                         69%     +$0.39           0         -$0.37       -$0.72   -$1.05

                                    75%     +$0.69      +$0.29         -$0.10       -$0.46   -$0.80

                                    80%     +$0.85      +$0.44         +$0.05       -$0.32   -$0.68

                                    85%     +$0.96      +$0.54         +$0.14       -$0.24   -$0.59



  Chicago-Quincy (IL Zephyr/Carl Sandburg) Ticket Revenue Impacts from
                   Travel Time and OTP Improvements
                                               (prepared 12/18/07)


                                                       (FY08 Base)
                                                             Chicago - Quincy Travel Time
                                             4:10           4:25         4:40         4:55    5:10

(FY08 Base)                         65%     +$0.31           0         -$0.29       -$0.57   -$0.82
              On-Time Performance




                                    70%     +$0.57      +$0.24         -$0.06       -$0.35   -$0.62

                                    75%     +$0.74      +$0.40         +$0.09       -$0.21   -$0.49

                                    80%     +$0.86      +$0.51         +$0.19       -$0.12   -$0.40

                                    85%     +$0.93      +$0.58         +$0.25       -$0.06   -$0.35

                                                       37
                                    Heartland Flyer Ticket Revenue Impacts from
                                        Travel Time and OTP Improvements
                                                  (prepared 12/18/07)


                                                          (FY08 Base)
                                                         Oklahoma City - Fort Worth Travel Time
                                                 4:00        4:15         4:30         4:45        5:00

(FY08 Base)                            29%      +$0.04          0          -$0.04       -$0.08    -$0.11
              On-Time Performance


                                       45%      +$0.09      +$0.05         +$0.01       -$0.03    -$0.07

                                       60%      +$0.20      +$0.15         +$0.11       +$0.07    +$0.03

                                       70%      +$0.25      +$0.21         +$0.16       +$0.12    +$0.08

                                       80%      +$0.29      +$0.24         +$0.19       +$0.15    +$0.10


                                    Pacific Surfliner Ticket Revenue Impacts from
                                         Travel Time and OTP Improvements
                                                  (prepared 12/18/07)


                                                          (FY08 Base)
                                                          Los Angeles - San Diego Travel Time
                                                 2:30        2:45         3:00        3:15         3:30
              On-Time Performance




(FY08 Base)                            75%      +$5.83          0          -$5.09       -$9.53    -$13.41

                                       80%      +$7.04      +$1.09         -$4.11       -$8.65    -$12.62

                                       85%      +$7.73      +$1.71         -$3.55       -$8.15    -$12.17

                                       90%      +$8.12      +$2.05         -$3.24       -$7.87    -$11.91



                                       Cascades Ticket Revenue Impacts from
                                        Travel Time and OTP Improvements
                                                  (prepared 12/18/07)


                                                          (FY08 Base)
                                                               Seattle - Portland Travel Time
                                                 3:20          3:35         3:50          4:05     4:20

(FY08 Base)                            60%      +$1.91          0          -$1.69       -$3.18    -$4.50
              On-Time Performance




                                       65%      +$4.34      +$2.20         +$0.31       -$1.35    -$2.82

                                       70%      +$5.93      +$3.64         +$1.63       -$0.15    -$1.73

                                       75%      +$6.89      +$4.52         +$2.42       +$0.58    -$1.06

                                       80%      +$7.46      +$5.03         +$2.89       +$1.00    -$0.67

                                                          38
                                      Capitols Ticket Revenue Impacts from
                                       Travel Time and OTP Improvements
                                                 (prepared 12/18/07)


                                                         (FY08 Base)
                                                         Oakland - Sacramento Travel Time
                                               1:45       2:00         2:15        2:30        2:45
              On-Time Performance
(FY08 Base)                          75%      +$3.48          0        -$2.90       -$5.32    -$7.34

                                     80%      +$3.97      +$0.42       -$2.54       -$5.01    -$7.08

                                     85%      +$4.26      +$0.66       -$2.34       -$4.84    -$6.93

                                     90%      +$4.42      +$0.79       -$2.22       -$4.74    -$6.84



                                    San Joaquins Ticket Revenue Impacts from
                                       Travel Time and OTP Improvements
                                                 (prepared 12/18/07)


                                                         (FY08 Base)
                                                          Oakland - Bakersfield Travel Time
                                               5:55        6:10        6:25           6:40     6:55
              On-Time Performance




(FY08 Base)                          68%      +$1.71          0        -$1.52       -$2.87    -$4.09

                                     75%      +$3.48      +$1.66       +$0.05       -$1.39    -$2.68

                                     80%      +$4.14      +$2.28       +$0.63       -$0.84    -$2.15

                                     85%      +$4.51      +$2.64       +$0.97       -$0.52    -$1.86



                                     Adirondack Ticket Revenue Impacts from
                                       Travel Time and OTP Improvements
                                                 (prepared 12/18/07)


                                                         (FY08 Base)
                                                           New York - Montreal Travel Time
                                               10:35       10:50       11:05        11:20     11:35

(FY08 Base)                          11%      +$0.11          0        -$0.11       -$0.21    -$0.31
              On-Time Performance




                                     30%      +$0.13      +$0.02       -$0.09       -$0.19    -$0.29

                                     50%      +$0.47      +$0.35       +$0.24       +$0.13    +$0.02

                                     65%      +$0.90      +$0.78       +$0.66       +$0.54    +$0.42

                                     80%      +$1.14      +$1.01       +$0.89       +$0.76    +$0.64


                                                         39
                                      Blue Water Ticket Revenue Impacts from
                                        Travel Time and OTP Improvements
                                                 (prepared 12/18/07)


                                                         (FY08 Base)
                                                          Chicago - Port Huron Travel Time
                                                6:45       7:00          7:15        7:30       7:45

(FY08 Base)                           33%      +$0.27         0        -$0.25       -$0.49     -$0.71
               On-Time Performance


                                      50%      +$0.50     +$0.21       -$0.06       -$0.31     -$0.54

                                      60%      +$0.72     +$0.42       +$0.14       -$0.13     -$0.37

                                      70%      +$0.89     +$0.58       +$0.28       +$0.01     -$0.25

                                      80%      +$0.99     +$0.67       +$0.37       +$0.09     -$0.17


              Washington-Newport News Ticket Revenue Impacts from
                       Travel Time and OTP Improvements
                                                 (prepared 12/18/07)


                                                         (FY08 Base)
                                                          New York - Richmond Travel Time
                                                6:05       6:20         6:35       6:50         7:05
               On-Time Performance




(FY08 Base)                           73%      +$1.12         0        -$1.06       -$2.05     -$2.99

                                      80%      +$1.87     +$0.71       -$0.38       -$1.41     -$2.38

                                      85%      +$2.18     +$1.01       -$0.09       -$1.14     -$2.12

                                      90%      +$2.39     +$1.21       +$0.09       -$0.96     -$1.96



                                     Hoosier State Ticket Revenue Impacts from
                                        Travel Time and OTP Improvements
                                                 (prepared 12/18/07)


                                                         (FY08 Base)
                                                          Chicago - Indianapolis Travel Time
                                                4:50       5:05          5:20         5:35      5:50

(FY08 Base)                           43%      +$0.02         0        -$0.02       -$0.03     -$0.05
               On-Time Performance




                                      55%      +$0.05     +$0.03       +$0.01       -$0.00     -$0.02

                                      65%      +$0.08     +$0.06       +$0.04       +$0.02     +$0.00

                                      75%      +$0.10     +$0.08       +$0.06       +$0.04     +$0.02

                                      80%      +$0.10     +$0.08       +$0.06       +$0.04     +$0.03

                                                         40
                         Kansas City-St. Louis Ticket Revenue Impacts from
                               Travel Time and OTP Improvements
                                                 (prepared 12/18/07)


                                                         (FY08 Base)
                                                         St. Louis - Kansas City Travel Time
                                                5:25       5:40          5:55         6:10      6:25

(FY08 Base)                           28%      +$0.12         0        -$0.12       -$0.23     -$0.34
              On-Time Performance


                                      45%      +$0.23     +$0.10       -$0.03       -$0.14     -$0.25

                                      60%      +$0.44     +$0.30       +$0.16       +$0.04     -$0.08

                                      70%      +$0.82     +$0.65       +$0.50       +$0.35     +$0.22

                                      80%      +$0.98     +$0.81       +$0.65       +$0.49     +$0.35


                                    Pennsylvanian Ticket Revenue Impacts from
                                       Travel Time and OTP Improvements
                                                 (prepared 12/18/07)


                                                         (FY08 Base)
                                                          New York - Pittsburgh Travel Time
                                                9:10       9:25          9:40        9:55      10:10
              On-Time Performance




(FY08 Base)                           72%      +$0.15         0        -$0.14       -$0.28     -$0.42

                                      75%      +$0.19     +$0.05       -$0.10       -$0.24     -$0.37

                                      80%      +$0.25     +$0.11       -$0.04       -$0.18     -$0.32

                                      85%      +$0.30     +$0.15       +$0.00       -$0.14     -$0.28



                                    Pere Marquette Ticket Revenue Impacts from
                                        Travel Time and OTP Improvements
                                                 (prepared 12/18/07)


                                                         (FY08 Base)
                                                         Chicago - Grand Rapids Travel Time
                                                3:45       4:00         4:15        4:30        4:45

(FY08 Base)                           23%      +$0.23         0        -$0.22       -$0.42     -$0.61
              On-Time Performance




                                      40%      +$0.30     +$0.06       -$0.16       -$0.37     -$0.56

                                      55%      +$0.52     +$0.26       +$0.03       -$0.19     -$0.40

                                      70%      +$0.73     +$0.46       +$0.21       -$0.02     -$0.24

                                      80%      +$0.81     +$0.53       +$0.27       +$0.03     -$0.19

                                                         41
                                    Carolinian Ticket Revenue Impacts from
                                      Travel Time and OTP Improvements
                                               (prepared 12/18/07)


                                                       (FY08 Base)
                                                        New York - Charlotte Travel Time
                                             13:00      13:15       13:30         13:45     14:00

(FY08 Base)                         26%      +$0.21         0         -$0.21       -$0.42   -$0.62
              On-Time Performance


                                    40%      +$0.52     +$0.30        +$0.08       -$0.13   -$0.34

                                    55%      +$1.49     +$1.26        +$1.03       +$0.80   +$0.58

                                    70%      +$2.45     +$2.20        +$1.96       +$1.72   +$1.48

                                    80%      +$2.79     +$2.53        +$2.29       +$2.04   +$1.80


                                    Piedmont Ticket Revenue Impacts from
                                      Travel Time and OTP Improvements
                                               (prepared 12/18/07)


                                                       (FY08 Base)
                                                          Raleigh - Charlotte Travel Time
                                              2:55        3:10         3:25          3:40    3:55
              On-Time Performance




(FY08 Base)                         74%      +$0.07         0         -$0.07       -$0.13   -$0.19

                                    80%      +$0.10     +$0.02        -$0.05       -$0.11   -$0.17

                                    85%      +$0.11     +$0.04        -$0.04       -$0.10   -$0.16

                                    90%      +$0.12     +$0.04        -$0.03       -$0.09   -$0.15




                                                       42
                                    Long Distance


                       Auto Train Ticket Revenue Impacts (millions)
                          from Changes in Travel Time and OTP


                                    (FY07 Base*)
                                                      Lorton-Sanford Travel Time
                                      17:30         18:00       18:30         19:00      19:30

(FY07 Base*)                52%                     -$1.30      -$2.69       -$4.10      -$5.54

                            60%       +$2.21        +$0.85      -$0.59       -$2.05      -$3.56
                Route OTP




                            70%       +$4.31        +$2.90      +$1.41       -$0.12      -$1.68

                            80%       +$5.52        +$4.08      +$2.56       +$1.00      -$0.59

                            90%       +$6.14        +$4.69      +$3.14       +$1.58      -$0.03


* Spring 2007 timetable, fares, year-to-date OTP, and FY07 annual forecast (prepared 6/14/07)




               California Zephyr Ticket Revenue Impacts (millions)
                      from Changes in Travel Time and OTP


                                    (FY07 Base*)
                                                    Chicago-Emeryville Travel Time**
                                      52:37         53:07      53:37          54:07      54:37

(FY07 Base*)                10%                     -$0.40      -$1.03       -$1.49      -$1.93

                            30%       +$0.14        -$0.26      -$0.89       -$1.35      -$1.79

                            40%       +$0.81        +$0.40      -$0.25       -$0.71      -$1.16
                Route OTP




                            50%       +$2.35        +$1.92      +$1.25       +$0.76     +$0.30

                            60%       +$4.35        +$3.90      +$3.19       +$2.68     +$2.19

                            70%       +$5.87        +$5.40      +$4.67       +$4.14     +$3.63

                            80%       +$6.75        +$6.27      +$5.53       +$4.99     +$4.47

                            90%       +$7.20        +$6.71      +$5.96       +$5.42     +$4.89


* Spring 2007 timetable, fares, year-to-date OTP, and FY07 annual forecast (prepared 6/14/07)
** travel time changes applied to entire route between Chicago and Emeryville
** same time changes are assumed in parallel corridor trains (Chicago-Galesburg)




                                               43
               Capitol Limited Ticket Revenue Impacts (millions)
                    from Changes in Travel Time and OTP


                                  (FY07 Base*)
                                                  Washington-Chicago Travel Time**
                                    17:30          18:00      18:30         19:00        19:30

(FY07 Base*)                15%                    -$0.28      -$0.56      -$0.83        -$1.10

                            30%     +$0.06         -$0.23      -$0.50      -$0.78        -$1.04

                            40%     +$0.33         +$0.04      -$0.24      -$0.52        -$0.79
                Route OTP




                            50%     +$0.95         +$0.65      +$0.36      +$0.07        -$0.22

                            60%     +$1.76         +$1.44      +$1.13      +$0.83       +$0.53

                            70%     +$2.38         +$2.05      +$1.73      +$1.41       +$1.10

                            80%     +$2.73         +$2.40      +$2.07      +$1.75       +$1.43

                            90%     +$2.92         +$2.58      +$2.24      +$1.92       +$1.60


* Spring 2007 timetable, fares, year-to-date OTP, and FY07 annual forecast (prepared 6/14/07)
** travel time changes applied to entire route between Washington and Chicago




           City of New Orleans Ticket Revenue Impacts (millions)
                    from Changes in Travel Time and OTP


                                  (FY07 Base*)
                                                  Chicago-New Orleans Travel Time**
                                    19:23          19:53       20:23        20:53        21:23

                            80%     -$0.11         -$0.37      -$0.63      -$0.88        -$1.13
               Route
               OTP




(FY07 Base*)                87%                    -$0.26      -$0.52      -$0.78        -$1.03

                            90%     +$0.03         -$0.23      -$0.49      -$0.75        -$1.00


* Spring 2007 timetable, fares, year-to-date OTP, and FY07 annual forecast (prepared 6/14/07)
** travel time changes applied to entire route between Chicago and Seattle/Portland
** same time changes assumed for parallel corridor trains (Chicago-Carbondale)




                                             44
                           Cardinal Ticket Revenue Impacts (millions)
                             from Changes in Travel Time and OTP


                                       (FY07 Base*)
                                                       New York-Chicago Travel Time**
                                         24:10         24:40       25:10        25:40      26:10

(FY07 Base*)                   38%                     -$0.09       -$0.16       -$0.26    -$0.37

                               50%       +$0.22        +$0.13       +$0.05       -$0.04    -$0.16
               Route OTP




                               60%       +$0.48        +$0.38       +$0.30      +$0.20     +$0.07

                               70%       +$0.67        +$0.57       +$0.49      +$0.38     +$0.26

                               80%       +$0.78        +$0.68       +$0.60      +$0.49     +$0.36

                               90%       +$0.84        +$0.74       +$0.65      +$0.55     +$0.41


* Spring 2007 timetable, fares, year-to-date OTP, and FY07 annual forecast (prepared 6/14/07)
** all travel time changes applied to times west of Washington; New York-Wash. times are fixed
** same time changes assumed for parallel corridor trains (Hoosier State)




               Coast Starlight Ticket Revenue Impacts (millions)
                    from Changes in Travel Time and OTP


                                       (FY07 Base*)
                                                       Seattle-Los Angeles Travel Time**
                                         35:22          35:52        36:22        36:52    37:22

(FY07 Base*)                   20%                     -$0.54       -$1.12       -$1.70    -$2.26

                               30%       +$0.11        -$0.43       -$1.02       -$1.60    -$2.16

                               40%       +$0.62        +$0.08       -$0.52       -$1.11    -$1.69
               Route OTP




                               50%       +$1.82        +$1.25       +$0.62      +$0.01     -$0.59

                               60%       +$3.36        +$2.77       +$2.11      +$1.46     +$0.83

                               70%       +$4.54        +$3.92       +$3.24      +$2.57     +$1.92

                               80%       +$5.22        +$4.59       +$3.89      +$3.21     +$2.54

                               90%       +$5.57        +$4.93       +$4.23      +$3.54     +$2.86


* Spring 2007 timetable, fares, year-to-date OTP, and FY07 annual forecast (prepared 6/14/07)
** all travel time changes applied to times between Eugene, OR and San Luis Obispo, CA



                                                  45
                            Crescent Ticket Revenue Impacts (millions)
                              from Changes in Travel Time and OTP


                                        (FY07 Base*)
                                                        New York-New Orleans Travel Time**
                                          25:51           26:21      26:51        27:21      27:51

(FY07 Base*)                    43%                       -$0.29      -$0.57      -$0.85     -$1.13

                                50%       +$0.77         +$0.47      +$0.18       -$0.11     -$0.40
                Route OTP




                                60%       +$2.08         +$1.76      +$1.46       +$1.15     +$0.85

                                70%       +$3.07         +$2.75      +$2.43       +$2.11     +$1.80

                                80%       +$3.64         +$3.31      +$2.99       +$2.67     +$2.35

                                90%       +$3.94         +$3.60      +$3.27       +$2.95     +$2.63


* Spring 2007 timetable, fares, year-to-date OTP, and FY07 annual forecast (prepared 6/14/07)
** all travel time changes applied to times south of Washington; New York-Wash. times are fixed




               Empire Builder Ticket Revenue Impacts (millions)
                    from Changes in Travel Time and OTP


                                        (FY07 Base*)
                                                          Chicago-Portland Travel Time**
                                          45:40           46:10       46:40        47:10     47:40

(FY07 Base*)                    75%                       -$0.49      -$2.44      -$2.92     -$3.20
               Route
               OTP




                                80%       +$0.46          -$0.03      -$2.00      -$2.49     -$2.77

                                90%       +$1.02         +$0.52       -$1.47      -$1.96     -$2.25


* Spring 2007 timetable, fares, year-to-date OTP, and FY07 annual forecast (prepared 6/14/07)
** travel time changes applied to entire route between Chicago and Seattle/Portland




                                                   46
           Lake Shore Limited Ticket Revenue Impacts (millions)
                  from Changes in Travel Time and OTP


                                              (FY07 Base*)
                                                                New York-Chicago Travel Time**
                                                19:22           19:52       20:22        20:52       21:22

(FY07 Base*)                            29%                     -$0.54      -$1.02      -$1.27       -$1.72

                                        40%     +$0.40          -$0.16      -$0.65      -$0.90       -$1.36

                                        50%     +$1.27         +$0.69       +$0.18      -$0.08       -$0.56
               Route OTP




                                        60%     +$2.41         +$1.79       +$1.26      +$0.98       +$0.48

                                        70%     +$3.28         +$2.63       +$2.07      +$1.79       +$1.27

                                        80%     +$3.78         +$3.11       +$2.54      +$2.25       +$1.72

                                        90%     +$4.03         +$3.36       +$2.79      +$2.49       +$1.96


* Spring 2007 timetable, fares, year-to-date OTP, and FY07 annual forecast (prepared 6/14/07)
** all travel time changes applied to times west of Albany; New York-Albany times are fixed
** includes connect losses on Albany-Boston stub train




               Silver Service Ticket Revenue Impacts (millions)
                    from Changes in Travel Time and OTP


                                              (FY07 Base*)
                                                             New York-Miami Travel Time (Meteor)**
                                                28:27           28:57       29:27        29:57       30:27

(FY07 Base*)                            33%                     -$1.01      -$2.26      -$3.54       -$4.86

                                        40%     +$0.96          -$0.07      -$1.34      -$2.64       -$3.97
               Average OTP (3 routes)




                                        50%     +$3.71         +$2.64       +$1.32      -$0.03       -$1.42

                                        60%     +$7.29         +$6.16       +$4.78      +$3.36       +$1.91

                                        70%    +$10.01         +$8.84       +$7.41      +$5.94       +$4.43

                                        80%    +$11.58         +$10.39      +$8.93      +$7.43       +$5.89

                                        90%    +$12.38         +$11.18      +$9.70      +$8.19       +$6.64


* Spring 2007 timetable, fares, year-to-date OTP, and FY07 annual forecast (prepared 6/14/07)
* combined impacts to Silver Star, Silver Meteor, and Palmetto
** all travel time changes applied to times south of Washington; New York-Wash. times are fixed




                                                         47
               Southwest Chief Ticket Revenue Impacts (millions)
                    from Changes in Travel Time and OTP


                                  (FY07 Base*)
                                                   Chicago-Los Angeles Travel Time**
                                    42:47           43:17       43:47        44:17       44:47

(FY07 Base*)                66%                     -$0.12      -$0.37      -$0.66       -$0.87
                Route OTP
                            70%     +$0.47          +$0.35      +$0.10      -$0.19       -$0.41

                            80%     +$1.27          +$1.14      +$0.89      +$0.59       +$0.37

                            90%     +$1.68          +$1.55      +$1.30      +$0.99       +$0.77


* Spring 2007 timetable, fares, year-to-date OTP, and FY07 annual forecast (prepared 6/14/07)
** travel time changes applied to entire route between Chicago and Los Angeles
** same time changes are assumed in parallel corridor trains (Chicago-Galesburg)




               Sunset Limited Ticket Revenue Impacts (millions)
                   from Changes in Travel Time and OTP


                                  (FY07 Base*)
                                                 New Orleans-Los Angeles Travel Time**
                                    47:52           48:22       48:52        49:22       49:52

(FY07 Base*)                18%                     -$0.15      -$0.21      -$0.31       -$0.42

                            30%     +$0.03          -$0.12      -$0.18      -$0.28       -$0.39

                            40%     +$0.18          +$0.03      -$0.04      -$0.14       -$0.25
                Route OTP




                            50%     +$0.52          +$0.36      +$0.30      +$0.19       +$0.08

                            60%     +$0.96          +$0.80      +$0.73      +$0.61       +$0.50

                            70%     +$1.29          +$1.13      +$1.06      +$0.94       +$0.82

                            80%     +$1.48          +$1.32      +$1.24      +$1.13       +$1.01

                            90%     +$1.58          +$1.42      +$1.34      +$1.22       +$1.10


* Spring 2007 timetable, fares, year-to-date OTP, and FY07 annual forecast (prepared 6/14/07)
** travel time changes applied to entire route between New Orleans and Los Angeles
** includes losses on Texas Eagle thru cars at San Antonio




                                             48
                 Texas Eagle Ticket Revenue Impacts (millions)
                     from Changes in Travel Time and OTP


                                  (FY07 Base*)
                                                  Chicago-San Antonio Travel Time*
                                    31:54          32:24       32:54        33:24        33:54

(FY07 Base*)               33%                    -$0.24       -$0.31      -$0.49        -$0.84

                           40%      +$0.24        -$0.00       -$0.08      -$0.25        -$0.61

                           50%      +$0.94        +$0.69      +$0.61       +$0.43       +$0.07
               Route OTP




                           60%      +$1.85        +$1.59      +$1.50       +$1.32       +$0.94

                           70%      +$2.54        +$2.28      +$2.18       +$2.00       +$1.61

                           80%      +$2.94        +$2.67      +$2.57       +$2.39       +$2.00

                           90%      +$3.14        +$2.87      +$2.77       +$2.59       +$2.19


* Spring 2007 timetable, fares, year-to-date OTP, and FY07 annual forecast (prepared 6/14/07)
** all travel time changes applied between Chicago and San Antonio
** same time changes are assumed in parallel corridor trains (Chicago-St. Louis)
** includes losses on Texas Eagle thru cars at San Antonio




                                             49
            Appendix III - Major Contributors




Major Contributors to Report E-09-02

Amtrak OIG                         Title

Primary Author:
     Phil Ong           Director, Inspections & Evaluations


Other Contributors:
     Calvin Evans       Deputy IG, Inspections & Evaluations
     Jim Simpson        Sr. Director, Inspections & Evaluations




                            50
